<html>
<title> - OVERSIGHT OF DHS PERSONNEL DEPLOYMENTS TO RECENT PROTESTS</title>
<body><pre>[Senate Hearing 116-478]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-478

                 OVERSIGHT OF DHS PERSONNEL DEPLOYMENTS 
                             TO RECENT PROTESTS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             AUGUST 6, 2020

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-869 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------       
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                   Joseph C. Folio III, Chief Counsel
           Michelle D. Woods, Director for Homeland Security
             Christopher Boness, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
         Alexa E. Noruk, Minority Director of Homeland Security
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     3
    Senator Scott................................................     7
    Senator Portman..............................................    12
    Senator Hassan...............................................    15
    Senator Paul.................................................    18
    Senator Rosen................................................    20
    Senator Lankford.............................................    23
    Senator Harris...............................................    26
    Senator Hawley...............................................    29
    Senator Carper...............................................    32
    Senator Sinema...............................................    35
Prepared statements:
    Senator Johnson..............................................    41
    Senator Peters...............................................    44

                               WITNESSES
                        Thursday, August 6, 2020

Hon. Chad Wolf, Acting Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     5
    Prepared statement...........................................    47

                                APPENDIX

Charts from Mr. Wolf.............................................    51
Amnesty International statement..................................    75
Responses to post-hearing questions for the Record:
    Mr. Wolf.....................................................    79

 
       OVERSIGHT OF DHS PERSONNEL DEPLOYMENTS TO RECENT PROTESTS

                              ----------                              


                        THURSDAY, AUGUST 6, 2020

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 o'clock a.m., 
in room SD-342, Dirksen Senate Office Building, Hon. Ron 
Johnson, Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Harris, Sinema, and 
Rosen.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order. I want to first thank Acting Secretary Wolf for his 
service and for taking the time to come before our Committee 
here today. I know you have a lot of things on your plate here, 
so I think the Committee does appreciate you taking the time to 
come and explain what has all been happening and answering our 
questions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    Your full written testimony will be entered into the 
record.
    For my part, I am going to read my opening statement and 
then there will be a 2-minute video at the tail end of my 
statement. But I will begin by saying that Federal Protective 
Service (FPS) Officer, David Patrick Underwood, was 53 on May 
29th when he was shot dead guarding a Federal building in 
Oakland, California, during a protest. His partner was also 
shot but thankfully survived.
    It was reported that the protest involving approximately 
8,000 people turned chaotic and violent as demonstrators 
smashed windows, looted stores, and broke into a bank a few 
blocks from where Officer Underwood was on duty.
    The suspect had killed a sheriff's deputy a few days 
before. His anti-police views drew him to Oakland where he saw 
the anti-police protest was an opportunity for more bloodshed.
    David Dorn was a retired police chief in St. Louis. He 
responded to the alarm going off at a shop owned by his friend 
during a night of anti-police protests that turned into a night 
of looting. Chief Dorn, 77 years old, father of five, 
grandfather of 10, died on June 2, in the anarchy unleashed in 
St. Louis.
    Unfortunately, the violence did not end there. Just 
yesterday morning, protesters in Portland broke into a police 
association building and started a fire inside. Protesters 
slashed a truck's tires. Shots were fired. It was the 69th 
straight day of what we are constantly told are, ``peaceful 
protests,'' against the existence of police in Portland.
    According to the Department of Homeland Security (DHS), 277 
attacks on police and Federal officers throughout America have 
occurred during these peaceful protests that started in May. At 
least 140 Federal officers have been injured in Portland alone. 
At least 113 Federal officers has suffered injuries to their 
sight after peaceful protesters have deliberately attempted to 
blind them with lasers and other weapons.
    At least 930 non-Federal law enforcement officers have been 
injured. At least one has died. At least 38 Federal officers 
have been doxed in Portland, meaning personal information about 
them, such as addresses or phone numbers, were put online as a 
means of intimidation. At least 21 Federal courthouses have 
been vandalized this summer.
    Protesters in Nashville broke into City Hall and lit fires 
in late May. A woman charged this week was caught on video 
holding a poster reading ``F the police,'' lighting it and 
tossing it through a broken window. Protesters in suburban 
Denver broke into a courthouse and lit fires. Protesters in 
Minneapolis burned down a police station. Others tried doing 
the exact same thing in Seattle. A peaceful protest in Oakland 
in July intensified, as news reports put it, after protesters 
set fire inside a courthouse and launched fireworks at 
officers.
    During a peaceful protest in Madison, Wisconsin, at least 
one individual hurled a gasoline bomb into the City-County 
Building, which holds the city's 911 dispatch center and a 
jail. That night also included the beating of at least two 
individuals, one of them a State lawmaker who collapsed into 
the landscaping near the Capitol.
    These peaceful protests that include arson and assault have 
left a mark on our cities, our culture, and our country. As 
journalist Michael Tracey recently wrote, ``From large metro 
areas like Chicago and Minneapolis/St. Paul, to small and mid-
sized cities like Fort Wayne, Indiana and Green Bay, Wisconsin, 
the number of boarded-up, damaged, or destroyed buildings I 
have personally observed--commercial, civic, and residential--
is staggering. Keeping exact count is impossible. One might 
think that a major media organization like The New York Times 
would use some of their galactic journalistic resources to 
tally up the wreckage for posterity, but roughly 6 weeks later 
and such a tally is nowhere to be found.''
    And while police were tied up dealing with peaceful 
protests, homicides elsewhere in our cities were skyrocketing. 
By the end of July, homicides are up 53 percent in Chicago over 
the same period in 2019. In Minneapolis, murders are up 86 
percent; in Milwaukee, 84 percent; New York, 29 percent; 
Atlanta, 34 percent; Seattle, 42 percent; Philadelphia, 33 
percent; in New Orleans, 36 percent; and Denver, 46 percent.
    Those numbers measure the loss of human lives. Many are 
black lives that do not seem to matter much to the movement. 
Some are children whose lives have been cut tragically short, 
children whose lives matter. Their names matter.
    In Chicago alone, child victims include 15-year-old 
Terrance Malden; 15-year-old Jeremiah James, who was shot in 
the head; 15-year-old Michael Ike; 14-year-old Vernado Jones, 
Jr.; 10-year-old Lena Nunez; 7-year-old Natalia Wallace, shot 
at a backyard party; 2-year-old Mekhi James, killed when 
someone shot at her father's car in traffic; 1-year-old Sincere 
Gaston, killed when somebody shot his mother's car. And that is 
just since Memorial Day, in one city.
    These people died because criminals killed them, but they 
may have also died because police were constrained and 
prevented from doing their job to protect them.
    When you encourage disdain for police you encourage 
criminals. When you do little or nothing to stop riots, you 
unleash anarchy. And when you encourage criminals and unleash 
anarchy, people die, and all of us suffer.
    With that I have a 2-minute video that I would like 
everybody to watch. It is not easy to watch, but it shows the 
reality of what these peaceful protests have devolved into.
    [Video played.]
    Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman, Acting Secretary 
Wolf. I appreciate you being here today. I know you have an 
awful lot on your plate and I appreciate that time is precious.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 44.
---------------------------------------------------------------------------
    You have a very challenging role, especially in these 
unprecedented times. Nevertheless, I am extremely disappointed 
with some of the recent actions DHS has taken under your 
leadership, actions that have put at risk your ability to 
effectively protect the homeland.
    I do not dispute that the situation in Portland required a 
response. We cannot allow a small number of bad actors who want 
to instigate violence or harm law enforcement personnel to take 
advantage of peaceful demonstrators that are exercising their 
First Amendment rights.
    However, DHS's chosen response to this situation on the 
ground I think is unacceptable. Instead of working together 
with State and local partners, you sent a surge of Federal 
personnel who did not have proper training to deescalate a 
situation. Their heavy-handed tactics caused additional chaos, 
and I am concerned that this singular focus on protecting 
Federal property is distracting the Department from addressing 
the threat posed by domestic terrorism.
    Last year at my urging, this Committee held the Senate's 
first-ever hearing focused on white supremacist violence and 
domestic terrorism threats. We have seen far too many attacks 
in this country at the hands of white supremacist terrorists, 
attacks that have taken the lives of far too many Americans.
    When Americans were murdered in shopping centers or while 
at worship by domestic terrorists with ties to white 
supremacist movements, your Department failed to respond with 
the same urgency that we saw on the streets of Portland. When 
one Federal Protection Services officer was tragically murdered 
and another was seriously wounded in the line of duty earlier 
this year--it was by Americans with ties to the Boogaloo Boys. 
A movement rooted in white nationalism.
    Yet you still have not released the complete plan to combat 
white supremacist violence, nearly a year after a long-delayed 
release of the Strategic Framework for Countering Terrorism and 
Targeted Violence. I want to know why your agency is not 
focusing on the threat posed by white supremacist violence in 
our country with the same sense of urgency.
    I want to know why your own Office of Intelligence and 
Analysis (I&A) has no trouble sharing intelligence on 
journalists with police in Portland but makes excuses for not 
being able to keep tabs on suspected domestic terrorists who 
frequent white nationalist forums online.
    The Department of Homeland Security and decisions made to 
keep our community safe should not be, or ever be driven by 
politics. Terrorism is terrorism, whether it fits the 
ideological narrative of DHS leaders or not. DHS must never let 
politics define, limit, or overshadow the truth about the 
security risks that are facing our country. Instead of aligning 
your Departments resources, personnel, and mission to tackle 
the white supremacist terrorist threat, you have chosen to 
focus on optics.
    I know that our law enforcement personnel put their lives 
on the line every time they go to work. I have fought hard in 
Congress to make sure that they have the resources they need to 
stay safe in the line of duty and return home to their families 
safe. But let me be crystal clear: the decisions this 
Administration has made in recent months have put DHS personnel 
at unnecessary risk. And because you chose to escalate 
conflicts, you not only risked your officers' safety, you 
risked the safety of American civilians.
    Now more than ever, we need leadership at the Department of 
Homeland Security. We need coordination with State and local 
officials. We need to focus on the most prevalent and the most 
deadly threats that are facing our country. I continue to hope 
the Department can juggle its complex mission, but what I have 
seen so far calls into serious this Administration's priorities 
when it comes to national security.
    I look forward to speaking with you today and continuing to 
work together to protect our national security and the security 
of the American people. Thank you.
    Chairman Johnson. Thank you, Senator Peters. It is the 
tradition of this Committee to swear in witnesses, so if you 
would please stand and raise your right hand.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Wolf. I do.
    Chairman Johnson. Please be seated.
    The Honorable Chad Wolf is the Acting Secretary of the 
Department of Homeland Security. He has been serving in this 
position since November 2019. Mr. Wolf previously held numerous 
senior leadership roles in the Department, including leading 
the Office of Strategy, Policy, and Plans, and serving as the 
Chief of Staff for the Department. Acting Secretary Wolf.

 TESTIMONY OF THE HONORABLE CHAD F. WOLF,\1\ ACTING SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Wolf. Chairman Johnson, Ranking Member Peters, Members 
of the Committee, thank you again for the opportunity to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wolf appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    While many Americans are aware of the traditional missions 
of the Department of Homeland Security such as aviation 
security, border security, immigration enforcement and 
counterterrorism, just to name a few, many are not as familiar 
with the important mission of the Federal Protective Service. 
FPS has protected Federal property for almost 50 years, and 
does so at almost 9,000 properties around this country. This 
responsibility was specifically provided to FPS through the 
Secretary of Homeland Security by the U.S. Congress.
    For over 60 days, Federal properties in Portland, 
particularly the Hatfield Federal Courthouse, have been 
attacked by violent criminals, violent opportunists, and 
violent anarchists.
    I want to be clear. We see, in Portland, every day, 
nonviolent protests. The Department is aware of the national 
dialogue taking place around racism and law enforcement 
practices, and we continue to support and defend every 
American's right to exercise their First Amendment rights. The 
violent activity that I will refer to today is not associated 
with those protests.
    The violent activity we see occurring between midnight and 
5 a.m. began roughly around May 28th, with the mayor of 
Portland announcing an 8 p.m. to 6 a.m. curfew, from May 30th 
to June 2. On June 1, due to the level of violence, well before 
DHS arrived in Portland, the Portland mayor asked the Governor 
of Oregon to activate the National Guard to help protect 
facilities in the city.
    Over the course of June, DHS monitored the situation in 
Portland closely, began deploying additional FPS officers into 
Portland to protect Federal facilities, and despite surging 
over 20 additional FPS officers throughout the month of June, 
in late June it was clear we were overmatched. In early June, 
at the request of FPS officials in Portland, I directed 
additional law enforcement assets to Portland to protect 
Federal properties as well as officers.
    Our Federal officers have faced assaults from bricks, 
baseball bats, sledgehammers, Molotov cocktails, mortar-style 
commercial-grade fireworks, accelerants, improvised explosive 
devices (IEDs), and other violent weapons. Since July 4th, 
Federal officials in Portland have made 99 arrests, and DHS 
officers have experienced 277 separate injuries. Those injuries 
range from minor to serious, to include several who may have 
permanent eye damage.
    I would like now to play a short video of what our officers 
have faced during their time in Portland.
    [Video played.]
    Unfortunately, what has been absent during this 60-day 
period was the assistance of local and State law enforcement 
personnel. DHS and the Department of Justice (DOJ) officers 
were provided little to no assistance, night after night, in 
protecting Federal properties and themselves. Local and State 
officials did not allow local law enforcement to police the 
area immediately around the Federal facilities nor in the parks 
nearby, which violent opportunists used as a staging ground to 
prepare for their nightly assault on the courthouse and our 
officers.
    Local and State officials did not allow law enforcement to 
make any arrests--I repeat, any arrests--if the violence was 
directed at Federal properties. In fact, on July 17th, the 
mayor of Portland directed that all Federal law enforcement 
agencies be prohibited from accessing the Portland Police 
Bureau Emergency Operations Center, and on July 22, the 
Portland City Council issued a resolution specifically 
directing all members of the Portland Police Bureau shall not 
provide, request, or willingly receive any operational support 
from DHS and DOJ law enforcement agencies.
    To put it simply, DHS and DOJ officers, law enforcement 
officers, civil law enforcement officers, were abandoned due to 
the dangerous policies by local officials. The cooperation and 
assistance our Federal officers receive in any other city 
around the country did not exist in Portland.
    Let me briefly address several inaccurate statements 
offered by some at events that have played out in Portland. Our 
law enforcement officers are not an occupying force, and they 
are not serving as a general domestic security agency. They 
have been deployed for an extended period of time to one city, 
and that is Portland, and that is to protect Federal 
properties.
    Our law enforcement officers are not ``stormtroopers,'' the 
``Gestapo,'' or ``thugs.'' They are civil law enforcement 
officers who wear clearly marked uniforms, who are properly 
trained, who follow established law enforcement procedures and 
practices, and operate within their authorities.
    It has been suggested that our law enforcement officers 
should not be in Portland if not invited by State or local 
officials. And while our preference is always to partner with 
local and State law enforcement, enforcing Federal law is not 
by invitation. Unlike local law enforcement, we cannot be 
directed to ignore criminal activity and actions, and we will 
never shy away from our statutory duties.
    On July 14th, I placed phone calls to the mayor of Portland 
the Governor of Oregon. I offered the full resources of the 
Department to assist them in ending the violence directed at 
the Federal courthouse. Their answer was stark. It was ``no, 
thank you'' and ``please remove all DHS law enforcement 
officers from Portland.''
    Fortunately, the Governor thought better about this 
decision and reached out 2\1/2\ weeks later to offer Oregon 
State Police support to address the violence.
    As of today, the full augmented DHS law enforcement posture 
remains in Portland. They will continue to remain until we are 
assured that the Hatfield Federal courthouse, as well as other 
Federal facilities in Portland, will no longer be violently 
attacked.
    While we have seen a noticeable decrease in violent 
activity directed at the Federal courthouse in recent days, 
make no mistake, there continues to be violence in Portland. 
Over the past 7 days, Portland police have declared a riot on 
four different occasions. Glass bottles and blinding lasers 
have been directed at Portland police officers, numerous 
arrests have been made, and the Portland Police Association 
building has been set on fire. While this violence is not 
directed at the Federal courthouse, DHS law enforcement 
officers remain on alert should it return.
    Again, thank you for the opportunity to testify today, and 
I look forward to the questions.
    Chairman Johnson. Thank you, Acting Secretary Wolf. Senator 
Scott has to preside at 11 a.m. so I think probably the 
cleanest thing is I will just yield my questioning time to 
Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Chairman Johnson.
    First off, I want to thank you for what you do every day. I 
was Governor for 8 years and I learned three things, or that 
people care about three things: jobs, education for their kids, 
and they want to be safe. So the video you showed, the things 
we have seen in Portland are disgusting.
    So do you think it is a peaceful protest when people use 
lasers to try to blind law enforcement officers?
    Mr. Wolf. Absolutely not.
    Senator Scott. Do you think it is a peaceful protest when 
people throw bricks at law enforcement officers?
    Mr. Wolf. Absolutely not.
    Senator Scott. Do you think it is a peaceful protest when 
people start fires around buildings?
    Mr. Wolf. Absolutely not.
    Senator Scott. So would you call the attack on the Federal 
building in Portland a peaceful protest?
    Mr. Wolf. No.
    Senator Scott. Do you have an obligation, in your job, to 
defend Federal property?
    Mr. Wolf. It is an obligation and it is a direction from 
the Congress. It says we shall protect those Federal 
facilities. We do not have an option. It does not say we can. 
It says that we shall.
    I would just say that we do see peaceful protest in 
Portland every day. Every day, in 66 days of this, there are 
peaceful protests. That does not make the news. There are no 
arrests. There are no injuries. That usually occurs in the 
early evening, very different than what the video showed.
    Senator Scott. So when you read things where politicians 
say, ``Oh, all those protests in Portland were peaceful,'' and 
you see the video, you see what is happening to your law 
enforcement officers, how do you feel and how does your law 
enforcement community feel?
    Mr. Wolf. I have some very strong feelings about that. 
Again, I think what folks are doing, whether intentionally or 
unintentionally, are they are confusing two different 
activities that are going on in Portland--peaceful protesting 
and then the violent activity that we see between midnight and 
5 a.m. there, every morning.
    Our law enforcement officers are doing their very best. 
Some of what you saw in the video, very difficult 
circumstances. They are behind a perimeter. They are inside a 
Federal courthouse. They are inside that courthouse for the 
vast majority of the time. They only come out to defend the 
courthouse as it is getting attacked.
    And some of the language, I mentioned some of the language, 
``stormtroopers,'' ``Gestapo,'' things like that, I think most 
reasonable Americans, and almost all law enforcement, know that 
that is an absolute lie.
    Senator Scott. So were you surprised when the mayor and the 
Governor did not provide support to do the job of protecting 
Federal property?
    Mr. Wolf. I did. Yes, I think everyone understands that 
Oregon and Portland, there is an environment there of 
protesting, and so we certainly appreciate that. What we saw 
throughout June and into July is it going beyond that, becoming 
very violent. When you do not hold individuals accountable or 
you allow them to attack a courthouse and then step back across 
the street into a park to rearm, to come back to the 
courthouse, night after night after night, it emboldens them.
    So what we see in Portland is an environment. If you go 
back to 2018, we had an U.S. Immigration and Customs 
Enforcement (ICE) facility, a DHS ICE facility, for 28 days was 
laid siege to by individuals. Portland police, local officials 
did nothing for 28 days. We finally had to send in Federal law 
enforcement assets to take that building back.
    Senator Scott. So what should Congress be doing to be 
helpful to you? First, why do we not talk about this. Talk 
about the people that have lost their vision. How many, and----
    Mr. Wolf. I think you saw a little bit from the video the 
Chairman. It was that green laser is what we are talking about. 
So that is a new tactic that we have seen that our Federal 
Protective Service officers have seen in Portland. It is very 
powerful. This is not the laser that your cat or your dog may 
chase on the ground. This is a very powerful laser. So it hits 
their eyes, it will heat up the nucleus of the eye, and it will 
give you permanent damage.
    We have been able to address that with some eye protection, 
but we have three officers that will likely lose some portion 
of their vision.
    Senator Scott. And have you heard a lot of sympathy for 
them through a lot of these national politicians? As they say, 
these people that throw bricks and start fires and do the 
lasers, have you heard any of them say, ``I am worried about 
your law enforcement officers losing their vision?''
    Mr. Wolf. No. I think that is really disappointing. I talk 
passionately about what we do in Portland, and it is because of 
the law enforcement officers there that are putting their lives 
in danger, that are getting injured. And what I do not hear is 
any appreciation for that. The Ranking Member certainly did 
that in his opening statement, and I thank him for that. But I 
hear very little of that. I hear very little of that from the 
Oregon congressional delegation. They have not mentioned DHS 
law enforcement officers, the injuries that they have had, 
protecting a Federal courthouse. It is very similar to 
protecting the U.S. Capitol. If someone walked up to the U.S. 
Capitol and tried to burn it down, you would arrest them. I 
would hope the Capitol Police would arrest them. That is all we 
are trying to do in Portland is to protect a Federal facility, 
seat of justice there in Portland.
    Senator Scott. And how many law enforcement officers have 
lost their life since these protests started back in May?
    Mr. Wolf. From a DHS perspective it is the one that the 
Chairman mentioned, Officer Underwood, in Oakland, in 
protecting a courthouse there in Oakland. But we have had 
numerous injuries across the country. The 277 that I mentioned 
is just specifically in Portland, but we have many numerous 
ones that have been injured.
    Senator Scott. Thank you, Chairman Johnson.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Chairman Johnson, and again, 
Acting Secretary Wolf, thank you again for your testimony. To 
be clear on the record, we are concerned about the men and 
women who put their lives in jeopardy every day to protect this 
country, and respect the job they do and understand it is a 
very tough job.
    Mr. Chairman, we heard Acting Secretary Wolf talk about the 
local officials and their unwillingness to be a part of 
securing their city. Certainly the images that we saw are 
disturbing. It is just hard for me to believe that local 
officials would just sit by idly and not be engaged in that. As 
I asked you when we requested this hearing, it would have been 
wonderful to hear both sides of the story, to have folks from 
Oregon--the mayor, the Governor, the police chief, other 
officials--that were engaged. If we are going to be looking 
into the actions that occurred in Portland, I think we need a 
complete picture.
    And my experience has been there are always two sides to 
every story, and we need to hear that story. So hopefully that 
will happen in the future, that we are able to get a better 
sense of that.
    So my question to, Acting Secretary Wolf, is, would you 
agree that the Department of Homeland Security's ability to 
conduct its mission of securing our nation really depends on 
partnerships and trust? Trust is absolutely critical in this 
very complex mission that you have, which talked about in the 
opening, and that trust needs to be established with State and 
local officials for everything. When you think of the broad 
range of topics that you deal with--election security, 
protecting our borders, cybersecurity, natural disasters--all 
of those things are under your purview. Do you not believe that 
we need to have a relationship with local officials in order to 
effectively conduct that mission?
    Mr. Wolf. I agree 100 percent.
    Senator Peters. So why did that not occur here?
    Mr. Wolf. Again, we have been talking, again, with Portland 
police and Oregon for over 60 days. We continued to ask them to 
get involved. Now what we do see is local police and State 
police making arrests if the violence is directed at Portland 
police facilities, or city facilities. If the violence is 
directed at specifically at the Hatfield Federal Courthouse, 
they would not engage. They would not make arrests.
    Again, these violent individuals are staging in two city 
parks across the street from the courthouse every night. They 
have tents set up, and this is where they stage out of. They do 
that on city streets. The fence that you saw there is on the 
curb, so they are in city streets as they are attacking the 
courthouse and that fence.
    We continue to engage with them. We had, over the course of 
60 days. As I mentioned in my opening statement, City Council 
passed resolutions that prohibited Portland police from 
coordinating with Federal law enforcement, even in their 
Emergency Management Center. So even in an area where police 
talk together, to deconflict, to make sure you do not have 
blue-on-blue incidents, that is currently not occurring in 
Portland because of some of the City Council resolutions 
passed.
    Senator Peters. I would like to read a statement to you by 
former DHS Secretary Chertoff. I do not know if you are 
familiar with him. He served under President Bush, Republican 
appointee.
    Mr. Wolf. Yes.
    Senator Peters. He recently stated that the Department's 
actions are putting public trust at risk and that its response 
in Portland shows that there was no respect for, or 
coordination with the wishes of local authorities. He went on 
to say, ``I believe that this is a dangerous precedent as our 
country faces so many threats that require these 
partnerships.''
    Is former Secretary Chertoff wrong?
    Mr. Wolf. So I certainly respect former Secretary 
Chertoff's service to the Department and to the country, but 
absolutely on this point he is dead wrong.
    Senator Peters. How is he dead wrong?
    Mr. Wolf. Again, I am happy to walk you through exactly the 
coordination that we had tried to do with Portland police. The 
mayor, I reached out to the mayor on several occasions to offer 
our support, to offer that coordination, and to understand what 
is occurring on the ground, the events that are occurring, 
again, between midnight and 5 a.m. every morning.
    I do not believe that Secretary Chertoff, as well as others 
that have commented on DHS actions, really understand what is 
going on in Portland. I think they confuse the peaceful 
protesting that we see usually takes place between 6 p.m. and 7 
p.m. until about 10:30 p.m. Again, no concerns there. It 
happens right across the street from the courthouse. There are 
no incidents. What we see at midnight to 5 a.m. is violent, 
violent activity where we get no support from State and local 
officials.
    Senator Peters. As a result of what has happened in 
Portland I certainly have heard an awful lot from State and 
local officials in my State, concerned as well about what they 
have seen. And, given the understandable concern that is being 
expressed following the images that we have seen, what are you 
doing to work with officials in communities that are 
participating in Operation Legend, to build trust and some of 
the critical relationships that are necessary for us to 
accomplish the mission that you are entrusted with?
    Mr. Wolf. I would answer that two different ways, Senator. 
One, what we see in Portland is very different than any other 
city across the country that we see when we talk about 
protecting Federal properties. We see a cooperative 
relationship between Federal, State, and local officials, 
whether it is Chicago, Seattle, or any other major city where 
we have Federal properties. If there are threats and 
intelligence, if individuals are targeting those facilities, 
State and local law enforcement partner with us and help 
respond to that. That is different than what has been occurring 
in Portland for over 60 days.
    Senator Peters. You are saying Portland is a one-off. 
Portland is one case. You are not seeing this all across the 
country.
    Mr. Wolf. That is correct.
    Senator Peters. We should not be worried about anarchy and 
chaos all across the country?
    Mr. Wolf. I have been very clear about directed events at 
Federal facilities. Portland is very different. Now, we do see 
targeted attacks in Atlanta and Seattle and other places, two 
Federal facilities. They have been damaged. But what we see in 
those cities is State and local law enforcement partnering with 
us to protect the facilities, and then, again, to hold those 
that are attacking those certainly accountable.
    When we talk about Operation Legend, which you mentioned--
it is a Department of Justice-led initiative--that is really to 
target sort of the violent street crime that you see in some of 
these major metropolitan areas. Transnational criminal gangs, 
illicit narcotics, firearms, things of that nature.
    And so DHS, through our Homeland Security investigators, 
are partnering with the Department of Justice on that, but it 
is very different activity than what we are doing in Portland.
    Senator Peters. I am very low on time here, but, Mr. Wolf, 
with DHS resources stretched, what assurances can you give us 
that combating white supremacist violence and domestic 
terrorism is truly a priority within your Department, and 
something that you will commit the resources necessary to 
combat?
    Mr. Wolf. Absolutely, and we have had several conversations 
about this. Again, the Department looks at all forms of violent 
extremism, whether it is the far right, the far left, and 
everything in between. Obviously we are responding specifically 
to what is going on in Portland and other cities around the 
country.
    Again, in a different position at the Department I had the 
opportunity to develop the Department's strategic framework for 
countering terrorism and targeted violence. That was back in 
September 2019. The strategy outlines the dangers that we are 
seeing, and the rising threat that we are seeing in violent 
white supremacist extremism, and lays out of a number of 
actions.
    We are working on that implementation plan, that I believe 
you referred to in your opening statement. We are also pushing 
out additional grants targeting this area as well. We have 
nonprofit security grants from the Federal Emergency Management 
Agency (FEMA) that also goes toward places of worship, faith-
based communities that will also protect them against this. And 
then, of course, our Cybersecurity and Infrastructure Security 
Agency (CISA) works with a host of partners and stakeholders 
regarding soft target security, and making sure that those are 
shored up against violent attacks as well.
    Senator Peters. So in closing here, I know that you put out 
the strategic plan, but what you really need to do is actually 
implement a plan. A plan is nothing unless it is actually 
implemented. You have not put out that implementation plan. We 
do not see a sense of urgency when it comes to creating that 
plan. What is your timeline? When should we see an 
implementation plan and actual concrete actions?
    Mr. Wolf. Sure. So while we have not published or put out 
an implementation plan we are implementing many of the 
initiatives in that strategy. Let me get you an exact date on 
when we can get the implementation plan up. I know it is being 
finalized as we speak, and we will provide that to the 
Committee as quickly as possible.
    Senator Peters. Thank you.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Secretary Wolf, first I would like you to 
tell the men and women who work for you, Federal law 
enforcement, that we appreciate what they are doing. We know 
that they have a responsibility, by the way, under laws that 
were passed here, in this Congress, to protect these Federal 
buildings. And looking at those videos is hard. It looks almost 
like a war scene.
    And so let them know that the people I represent understand 
they have a responsibility, understand that they are putting 
themselves in danger, and it is appreciated.
    And just to back up a second, the tragic murder of George 
Floyd was something I think, all of us thought was horrible. 
Then we had protests and demonstrations all around the country 
in response to that, and in support of racial justice and 
equality. I think the vast majority of Americans fully support 
those demonstrations, if they are peaceful. I think we have the 
right, as Americans, under the First Amendment, to be able to 
protest, and we can never let that be taken away.
    But what we saw in those videos and what you have explained 
today, and what we have all seen on our TV sets and online is 
deeply troubling, because the violence, the rioting, the 
physical damage, the arson, certainly the looting--one thing 
that breaks my heart is to see store owners, particularly in 
some of these underserved communities, who have worked hard to 
create a small business, see it destroyed. You can drive 
through almost every major city in America today and see stores 
that are boarded up. You can see it here in Washington, D.C., 
by the way. If you drive around the White House area you will 
still see a lot of stores and shops boarded up.
    The arson that we saw in the videos is extremely dangerous 
to everybody, and unfortunately we have seen this accompany 
some of these peaceful protests--not all, and Portland is an 
exception, as you have said, in terms of the attacks on the 
Federal buildings.
    I guess the one question I would ask you is what have you 
learned? The coordination with the local and the State 
officials has obviously been a huge problem--lack of 
coordination, I should say. It sounds like that is getting 
better. It sounds like the Governor and others are now working 
more closely with you.
    But what could you have done better? The protection of the 
courthouse, and Federal building in general, I think is, again, 
clearly within your mission set, but were there things that 
were done, or things that happened, that you have learned from, 
in terms of potential for future conflicts like this? What 
would you tell us this morning?
    Mr. Wolf. Thank you for the question, and I think it goes 
back to the Ranking Member's question about the partnership 
between Federal law enforcement and State and local law 
enforcement. What we have seen is across the country it works, 
in city after city after city. Unfortunately, what we saw in 
Portland was the lack of that, and it allowed these violent 
individuals to, again, continue to attack a Federal facility 
night after night with no repercussion, with no one holding 
them accountable.
    So they became more emboldened night after night. And we 
started seeing some of the weapons that they used became more 
and more sophisticated. At first it was bricks, bottles, frozen 
water bottles, canned food, things that are hard that could be 
thrown at an officer. Night after night, 30 days in, 40 days 
in, there is no consequence to them doing that, so then they 
come back with commercial-grade fireworks, and then they come 
back with IEDs, and then they come back with power tools. They 
keep coming back because there is no accountability.
    So the lesson learned is making sure that there is close 
partnership with State and local law enforcement officials, and 
again, we see that in every other city around the country. We 
see that now.
    Senator Portman. I think you make a good point. You do not 
want to have this accelerate, and so, getting control of the 
situation earlier obviously makes sense. I will not push you on 
this because I want to ask you about Operation Legend, but I 
think my question is more what have we learned as a Federal 
DHS, Federal protective service law enforcement function, that 
we could have done better? Was there nothing to have been done? 
Could that information have been provided in a way that was 
more compelling, to be able to get that cooperation?
    I find it extraordinary that the cooperation was not there, 
because I know at every level, local law enforcement, State law 
enforcement, Federal law enforcement, typically have a passion 
to be able to coordinate and work together, and do it well, 
even without direction often, just at the grassroots. But maybe 
you can get back to me on that, as to what could have been done 
to try to make this relationship work better.
    On Operation Legend, it came up a moment ago, and I would 
like to clear up some confusion about that. This has been 
something that has been confusing in my own State. My 
understanding is that Operation Legend is a follow-on to 
Operation Relentless Pursuit, which is about violent crime. It 
is not about these protests. It is not about what we have been 
talking about otherwise today.
    And Cleveland, Ohio, is one of the cities that is 
apparently part of Operation Legend, and will receive more 
funds and also more help, including help from DHS. My 
understanding is that several DHS personnel will be part of the 
new Operation Legend, or the expansion of Operation Relentless 
Pursuit, in Cleveland.
    And I think, the violence that we have seen in our cities--
and I am talking about violent crime here--is a big concern. I 
mean, we have seen an uptick. The studies I have seen even this 
week are that there is about a 24 percent rise since last year 
in reported homicides in 50 of our largest cities in America. 
Unfortunately, Cleveland is one of those.
    And so I think it is good that we are helping Cleveland to 
cut down on violent crime. I think, having talked to the mayor 
about this, he also would like to see, obviously, a reduction 
of violent crime. My concern is that there was some confusion 
and concern back in Ohio about this program because of a lack 
of communication, with the U.S. attorney, with the mayor, with 
others. The mayor told me he read about Operation Legend, as an 
example, he said he heard about it from a press release. So did 
I.
    And my question to you is what could we do to sort of 
reduce the confusion about this? There was a lot of concern 
that this had to do with Federal agents coming in and dealing 
with protests, which was not the issue at all. It was about 
violent crime. And without having information up front, and 
without having done the proper ground work, it created more 
confusion than it should have. I think it has been cleared up 
now, but I would just ask you, could you distinguish Operation 
Legend from, as an example, the situation in Portland, and can 
you tell us how DHS could do a better job in cooperating with 
local law enforcement, as well as some of our Federal 
personnel, including the U.S. attorneys?
    Mr. Wolf. Sure. Again, what we are doing in Portland is 
protecting a Federal facility that has been under attack, or 
was under attack for over 60 days. Operation Legend is not 
directed at Federal facilities or the protection of Federal 
facilities. It is more to go address that violent street crime.
    Homeland Security Investigations (HSI), which is part of 
ICE, is partnering. It is a small partnership with DOJ as they 
go out into different cities. Specifically in Chicago is where 
we are most engaged. And HSI, every day, deals with drug 
trafficking, money laundering, weapons trafficking, and violent 
crime, and that is what we are partnering with the Bureau of 
Alcohol, Tobacco, Firearms and explosives (ATF), the Drug 
Enforcement Administration (DEA), Federal Bureau of 
Investigation (FBI), Marshal Service, in specific cities like 
Chicago, but across the country as well.
    So two different missions. Regarding Operation Legend and 
making sure that the coordination and the communication is 
there, it is my understanding that most of Operation Legend's 
initiatives are being run by U.S. attorneys in those various 
cities and various districts. So I will certainly take that 
back to DOJ to make sure that that partnership and that 
communication is there.
    Senator Portman. Again, I think I would appreciate you 
looking into it, but also getting back to us and talking about 
how we can better coordinate, because clearly in Cleveland, 
Ohio, we did not 
coordinate well. Although, again, you do not take the lead in 
that--it is more of a DOJ responsibility--for local law 
enforcement and for the mayor or even the U.S. attorney to have 
heard about it through press accounts rather than having been 
told about it and having gotten the explanation makes it more 
difficult for you to do your job, because when your agents show 
up and people are not sure what the purpose is, it makes it 
hard.
    So I do think it is a matter of simple communication, and 
my hope is that we can do a better job at that going forward.
    And again, I want to end with saying that I hope you will 
communicate back to people, the men and women who work for you, 
who are doing their jobs and doing it professionally, that we 
understand the sacrifices they are making and we appreciate it.
    Mr. Wolf. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair and Ranking Member, 
for having this hearing. I would just echo the Ranking Member's 
observation that it would be good to build on this hearing by 
also hearing from State and local officials.
    I want to thank you, Acting Secretary Wolf, for your 
testimony today, and I also hope you will pass on my thanks to 
the men and women who work so bravely to defend our country and 
make us safe. I also want to take a moment to mourn the loss of 
David Patrick Underwood, the Federal Protective Service officer 
who was killed in the line of duty in Oakland by a member of 
the Boogaloo movement.
    Our country is undergoing a much-needed reckoning about our 
history and reality of racial injustice following the killings 
of George Floyd, Ahmaud Arbery, Breonna Taylor, and so many 
others. As we continue working to address long-standing 
inequities in our society, including in the criminal justice 
system, we must also conduct strong oversight of the Federal 
Government's response in recent months to the protests in 
places like Washington, D.C., and Portland, Oregon. That is why 
today's hearing is so vital.
    So I want to start, Mr. Wolf, with this question. The 
Washington Post and Politico recently reported that the DHS 
Office of Intelligence and Analysis compiled intelligence 
reports about journalists and protestors involved in the 
Portland protests. A second story also stated that Mr. 
Cuccinelli waived the requirements that DHS's intelligence 
office be subject to a review by DHS's internal civil rights 
watchdog, the Office for Civil Rights and Civil Liberties 
(CRCL).
    That is extremely troubling. At the core of its mission, 
DHS relies on public trust and cooperation as embodied by the 
``See Something, Say Something'' campaign. The American people 
expect that DHS's activities will be done in a manner 
consistent with our values. So it is extremely disappointing to 
hear that DHS's own internal mechanisms are being circumvented, 
or perhaps arbitrarily discarded.
    As I have heard you say, the matter is being investigated 
by the Department. Can you confirm for us, please, who is 
leading the investigation?
    Mr. Wolf. Sure. The Department Office of the Inspector 
General (OIG) is performing that investigation. I will say you 
mentioned two different issues I think that are being 
conflated, so if I have just a moment----
    Senator Hassan. Yes.
    Mr. Wolf [continuing]. I can explain the situation.
    So open source reporting program at DHS has been in 
existence since 2011. And so there were three instances that I 
was made aware of, of information being put out that also 
identified media or press individuals. As soon as I was made 
aware of what was occurring, I stopped the program, I stopped 
the practice, referred it to the Inspector General (IG), and 
again, it removed the individual in charge of that directorate.
    Senator Hassan. Let me just stop you there for a minute. My 
time is limited and I just wanted to drill down on one thing. 
Is the IG the only investigation going on of that issue?
    Mr. Wolf. Of that specific issue, yes, I believe so.
    Senator Hassan. OK.
    Mr. Wolf. We have internal--I&A has also an oversight 
function that is also looking at that.
    Senator Hassan. OK. So then what I want to get to then is 
if you have another internal investigation, given his apparent 
involvement in the waiving of the requirement that the DHS 
intelligence activities comport with civil rights and civil 
liberties oversight, will Mr. Cuccinelli recuse himself from 
any matters related to that investigation?
    Mr. Wolf. The OIG investigation is separate and apart from 
anything that I would be involved in, that Mr. Cuccinelli would 
be involved in----
    Senator Hassan. But you mentioned an internal 
investigation.
    Mr. Wolf. It was a preliminary investigation, but as soon 
as the IG picked up the investigation or accepted it----
    Senator Hassan. That is now the only one.
    Mr. Wolf [continuing]. We have stopped.
    Senator Hassan. OK. All right.
    Mr. Wolf. Now specifically to go back to the CRCL question 
that you specifically mentioned, I think they are being a 
little confused here. So we have raw intelligence reporting and 
then we have finished intelligence products. What Mr. 
Cuccinelli did was to remove himself, if there was an issue 
with finished intelligence reports and there was a disagreement 
between CRCL and the Office of Intelligence and Analysis, it 
would normally come to the Deputy Secretary to resolve. What he 
did is he removed himself from that, we left it with the Under 
Secretary of Intelligence and Analysis to resolve that. CRCL 
plays a role with that. CRCL also plays a role regarding 
collection requirements of raw intelligence as well.
    So I think it is important to separate those things. What 
we saw in Portland in the open source reporting are raw 
intelligent products.
    Senator Hassan. Thank you. We will follow up with you on 
that, because I want to drill down and make sure we understand 
it, but it is a concerning report, and I appreciate that the IG 
is taking it on.
    I want to move on to something else. As DHS personnel work 
to protect Federal buildings and their occupants, it is 
critical that they take all possible steps to try to de-
escalate any confrontations, both to protect themselves and 
others. So I want to build a minute on Senator Portman's line 
of questions about what DHS could have done better.
    Two of your predecessors at the Department, who both served 
under a Republican administration, have expressed concern that 
that was not what happened in Portland, de-escalation was not 
what happened. Tom Ridge, our nation's first DHS Secretary and 
former Governor of Pennsylvania, said that the way DHS 
officials were acting was, ``not defusing the situation. It 
exacerbated it.''
    Similarly, former DHS Secretary Michael Chertoff recently 
said that DHS's forces have taken a, ``very belligerent, 
aggressive tone,'' toward the protests and that their actions 
have, ``poured gasoline on the fire,'' of a situation that now 
threatens to undermine the public's trust in the Department.
    Mr. Wolf, have you spoken with former Secretaries Ridge and 
Chertoff? Do you agree with them that DHS should seek to de-
escalate tensions when in the field instead of increasing them?
    Mr. Wolf. I have spoken to both former Secretaries Ridge 
and Chertoff. I walked them through specifically what was going 
on in Portland. They asked a number of questions, and at the 
end of that conversation they thanked me. They said they did 
not know all the facts.
    Senator Hassan. Right.
    Mr. Wolf. And that certainly informs their decision moving 
forward.
    Absolutely, we absolutely have to de-escalate. A lot of the 
training at Federal Protective Service, as well as the specific 
assets that we sent to Portland are trained on de-escalation 
techniques. A lot of what we do--when you look at a 5-hour 
period every night, we are inside that Federal courthouse 90 to 
95 percent of that time. We only come out when there are fires 
being set, when there is enough individuals, when there are 
thousands--we have seen anywhere from 500 to 5,000 individuals 
on that fence line, and at some point you do have to disperse 
the crowd, you have to push them back because they will 
overrun.
    Senator Hassan. Right.
    Mr. Wolf. So we do a number of tactics that actually try to 
de-escalate the situation.
    Senator Hassan. What I would appreciate, understanding that 
I am just about out of time here, what I would appreciate is 
material from your Department about the type of de-escalation 
training that you do. And I also, to follow up on where Senator 
Portman was going, would appreciate further conversation about 
what you have learned about what worked and did not work. 
Because we have seen very disturbing video here today. There is 
also very disturbing video where Federal authorities are using 
batons on people who appear to be peaceful, right?
    So those are the types of things that together can 
escalate, along with decisions, tactical decisions your forces 
may make.
    So I would appreciate following up with you. Again, thank 
the professional men and women in your service for their 
service, and thank their families for us too. Thank you.
    Mr. Wolf. And just one clarification. The video that we see 
with the baton hitting the Navy veteran----
    Senator Hassan. Yes.
    Mr. Wolf [continuing]. That is not DHS law enforcement.
    Senator Hassan. But again, that is why coordination and----
    Mr. Wolf. I understand.
    Senator Hassan [continuing]. Clarity about what you are 
doing and who you are, and where clear identification makes a 
difference. Thank you.
    Chairman Johnson. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Of course, black lives do matter, but just 
saying it is so does not make it so. Slogans painted in the 
street do not necessarily save ``lives.'' It is important to 
know that the majority of lives being lost in our cities are 
young black men. I think it is unconscionable. It has been 
going on decade after decade after decade. I have visited the 
south side of Chicago. I have been to the most violent precinct 
in our country. I visited with Pastor Brooks there who is 
trying to save lives one at a time, through Christ, through 
counseling, through showing a strong male role model that is 
acting in a peaceful way.
    I have been to Ferguson. I was there after the riots. I met 
with the business owners there who lost their businesses, the 
majority of whom were African American.
    Pastor Brooks was recently interviewed, and after the 
rioting in Chicago lamented that the rioters burned down the 
local pharmacy and now people in his community were having to 
drive 15 to 20 miles out into the suburbs to get their 
prescription drugs.
    It is unconscionable. It is not an easy problem to fix. 
People have tried to fix it, but it is going on in our cities 
and it is made worse by lawlessness. It is made worse by the 
mayhem that people have allowed.
    And there is an inconvenient truth that we have to face, 
and it is a political one. The inconvenient truth is that all 
of these cities are run by Democrats, and have been for 50 
years. Every one of our major cities run by Democrats--
Governors, mayors, police chiefs--all Democrats. And you can 
say it is a coincidence or you can say, ``Well, all of them?'' 
If you look at the murder rate, the top 10 cities that have the 
highest murder rate in our country, every one of the majors is 
a Democrat.
    So we have to get to the bottom of this, and if you live in 
those cities we have to figure out some kind of constructive 
way to make it better. But you have to first realize that the 
Democrats have failed every one of these cities. And if your 
city is under attack and you have young children being shot, 
the Chairman mentioned the names of these young children. In 
Louisville, 2-year-olds, 5-year-olds being shot through windows 
and doors.
    Who is running the cities? We have to do something about 
it. But painting slogans and graffiti, and throwing Molotov 
cocktails is not getting you anywhere. If you live in Portland, 
instead of throwing Molotov cocktails, instead of trying to 
burn the Federal courthouse, maybe you should be gathering 
signatures to have a recall of the mayor, who let mayhem and 
chaos happen in the city. Maybe we should be recalling the 
mayor of Chicago, who has allowed this to go on.
    It has been going on decade after decade. Black lives do 
matter. But if they do matter, do something about it, and those 
who are at the receiving end of this, the young black men who 
are dying in Chicago, dying in these cities, rise up and say, 
my goodness, insanity is doing the same thing, over and over 
again. Quit electing the people who are allowing your cities to 
go to rot and ruin, who are allowing the local drugstore to be 
burned down, who are allowing the businesses to be burned down, 
that will leave the community and never come back.
    It is a disaster in our country, and people need to let the 
blame accrue where it will accrue, to the people who have been 
running these cities for 50 years.
    With regard to who should do this, my preference is that it 
be done locally. The Constitution reserves these police powers 
to the State, and primarily the police power should be 
exercised in the State. It should be a rare exception that we 
have Federal officers in our States taking care of things, even 
as serious as arson, even as serious as attacks.
    But I do understand when there is mayhem and chaos somebody 
has to protect the Federal buildings. My reference would be 
that if that has to happen that they stay at the Federal 
buildings, arresting only those who are committing violence, 
when they commit the violence.
    And we are aware and careful that allowing Federal police, 
and allowing people to Federalize police forces and send them 
into our cities, that there are dangers to that. One of the 
checks and balances of federalism was not to let the Executive 
Branch have police, not to have the Executive Branch in our 
States.
    So I think we need to be very wary of the possibility for 
harm by Federalizing police powers, sending them into these 
situations, and there have been some disasters already. Perhaps 
not your department, but the images of the young man being shot 
with a rubber bullet, who had his skull fractured and his face 
fractured, and maybe ultimately will be disfigured from this, 
while he was simply holding up a speaker, those are terrible 
symbols. And it is hard to be a policeman.
    The Federal authorities have not necessarily been, I think, 
steeped in the training that it takes to be able to try to put 
down violence, but at the same time, not get in the way of 
peaceful protests. And we have to acknowledge, though, that 
this is a chaotic situation and it has not been peaceful 
protesting, so someone must do something.
    But I would say that the more constructive way of doing 
this would be to assess who are the officials, who are the 
political officials that run these cities, and how they let us 
down. And it is time and time again, Democrats, for 50 years, 
running our cities and letting us down. And if you are a family 
that lives on the south side of Chicago, you need to ask 
yourself who is in charge of this city, and why are they not 
doing something to protect my children? How come children are 
still being shot in Chicago? Who is doing it? Why are my local 
officials doing nothing? And the answer is, frankly, Democrats 
have done nothing for our cities for 50 years, and the people 
who live in our cities need to make a reassessment of who has 
been in charge of our cities.
    The only question I would like to finish with would be the 
idea of police powers, and that police powers primarily should 
reside within the States and not the Federal Government. Do you 
have a comment on that?
    Mr. Wolf. Senator, I would say that, again, Federal 
Protective Service, through laws that Congress has passed, have 
given them specific authorities to protect Federal facilities. 
Now when we talk about everywhere else in the country outside 
of Portland, any arrests that need to be made, because they are 
individuals perhaps targeting or committing violence against 
those Federal facilities, are usually done by State and local 
law enforcement. So I would agree with you. That is who needs 
to arrest these individuals and work with the U.S. attorney to 
charge those individuals.
    Unfortunately, for 60 days in Portland, we did not see that 
occur. No one was holding these individuals accountable. Night 
after night they would commit these acts. No one would hold 
them accountable. So DHS was put into a position that we had to 
start making arrests. We had to hold these individuals 
accountable.
    As I indicated at the top, 99 Federal arrests thus far in 
Portland. All of those have either taken place on Federal 
property or within one to two to three blocks of that Federal 
property. There seems to be a misconception that we are 
somehow, across the city, policing the city. That is not the 
case. We are only targeting individuals that we see, that we 
know, and that we track, take, violent activities and criminal 
activities against that courthouse.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Mr. Chairman, Ranking Member 
Peters. Acting Secretary Wolf, would you please convey and know 
that our thoughts and prayers are with the families of any 
officers injured in any of these attacks that were going on, 
and let them know that we are thinking about them in this 
difficult time.
    But I do want to talk, like everyone else, about domestic 
terrorism, because this week we marked one year since a 
horrific terrorist attack in El Paso, in which 23 Americans 
lost their lives, after a white supremacist targeted the city's 
Latino community in a deadly rampage. According to the FBI, 
white supremacists are the nation's most significant domestic 
threat. Statistics show that racially motivated, violent 
extremism accounts for the majority of all domestic terrorist 
acts since 1994.
    Unfortunately, instead of addressing the root causes of 
white supremacist violence, this administration is using the 
domestic terrorism label to crack down on peaceful protesters 
exercising their First Amendment rights.
    To justify the presence of Federal law enforcement in 
Portland, Acting Deputy Secretary Ken Cuccinelli and other DHS 
officials have accused demonstrators made up largely of 
students, veterans, mothers, nurses, and other Americans crying 
out for racial justice, of terrorism. President Trump has 
referred to his fellow Americans as a beehive of terrorists. 
Branding peaceful protesters as terrorists is a tactic commonly 
used in autocratic societies, not in democracies.
    Politicizing domestic terrorism distracts from DHS's 
mission to keep Americans safe from violent extremism, whether 
it is violence targeting the Latino community in El Paso, the 
Jewish community at the Tree of Life Synagogue in Pittsburgh, 
or any other Americans.
    So just yes or no, Acting Secretary Wolf, because our time 
is limited, do you agree with the FBI's assessment that the top 
threat we face from domestic terrorists stems from racially 
motivated, violent extremists, particularly white supremacists.
    Mr. Wolf. Yes, Senator. What I would agree with, and I have 
been on record, and our strategy back in September 2019, does 
support a growing threat from domestic individuals here in the 
United States, to include white supremacist extremism growing 
here. We see the number of incidents rising, and again, as I 
outlined to a question, I believe, from the Ranking Member, the 
Department has taken a number of initiatives to address that.
    Let me just comment really briefly on a comment that you 
made that I strongly disagree with. DHS law enforcement in no 
way is cracking down on peaceful protesters in Portland. That 
is not accurate----
    Senator Rosen. I appreciate that, but I would like to claim 
my time back and follow up on Ranking Member Peters' question. 
Thank you.
    This administration has gutted the DHS budget to combat 
domestic terrorism, including by closing offices and cutting 
programs. Does the Department have the resources it needs to 
prevent white supremacists from escalating their hateful 
rhetoric into violence?
    Mr. Wolf. Yes, and again, we have actually increased the 
number of funding to our grant program for targeted violence 
and terrorism prevention. We have a number of individuals 
dedicated to this mission. I will just say that from DHS's 
perspective, we do not investigate these. Obviously that is the 
Department of Justice. What we do is training, information-
sharing, and outreach to different communities, to make sure 
that they have the resources they need to respond to this.
    So the Department is doing that. We are doing that in a 
fulsome way. We have a grant program that is going out. We have 
increased the number of staff in that office, and we are 
implementing, as I responded to the Ranking Member, on our 
strategy to address all forms of violent extremism.
    Senator Rosen. That is good to hear. Can you tell us about 
the amount of dollars that you have spent sending Federal law 
enforcement agents to Portland, that could have otherwise gone 
to combating violent extremism across our country? Do you have 
an estimate on that cost?
    Mr. Wolf. Sure. I do not have the specific dollar figure 
that our assets being deployed to Portland, again, deployed 
assets to Portland, because a Federal courthouse was being set 
on fire every night.
    Senator Rosen. Could you supply that budget for us, what 
was spent on that, please?
    Mr. Wolf. We will certainly provide that to the Committee.
    Senator Rosen. Thank you. I appreciate it. I want to move 
now to talk a little bit about Deferred Action for Childhood 
Arrivals (DACA). While you send law enforcement to major 
American cities without the consent of State and local leaders, 
in the background DHS, you are taking steps that are going to 
harm our dreamers, hundreds of thousands of them nationwide.
    In Nevada we are home to 13,000 DACA recipients. Our 
dreamers are our friends, our neighbors, students, colleagues, 
small business owners, first responders, our medical 
professionals, in some cases they contribute to our community 
every single day.
    And the U.S. Supreme Court recently sided against the 
administration in its quest to end the DACA program, including 
that its termination of DACA was arbitrary and capricious, and 
declaring that the matter be remanded to DHS so it may consider 
the problem anew. In other words, you, as Acting DHS Secretary, 
have the power, by choice, to protect dreamers by preventing 
the DACA program from being terminated.
    However, in a July 28th memo you stated you were making 
changes to DACA and directing DHS personnel, and ``to take all 
appropriate actions to reject all pending and future initial 
requests for DACA, to reject all pending and future 
applications for advanced parole, absent exceptional 
circumstances, and to shorten DACA renewals.''
    This memo clearly ignores the U.S. Supreme Court's decision 
requiring for the U.S. Citizenship and Immigration Services 
(USCIS), to continue to accept and process DACA renewal 
applications.
    But you went on saying, and I am going to quote again, ``I 
have concluded that the DACA policy, at a minimum, presents 
serious policy concerns that may warrant its full rescission.'' 
Again, a decision to pursue rescission of DACA program lies in 
your hands, and I urge you to consider how your actions to 
rescind the DACA program will adversely affect the lives of 
hundreds of thousands of Americans.
    In the midst of the coronavirus disease (COVID-19) 
pandemic, more than 200,000 DACA recipients have been working 
in areas that DHS identifies as part of the essential, critical 
workforce infrastructure, 41,000 DACA recipients working in the 
health care, physicians, nurses, paramedics, and the like. So 
please consider reviewing this and allowing these first 
responders, people on the front line, to continue to serve this 
Nation.
    Thank you. My time is up.
    Chairman Johnson. Secretary Wolf, you wanted to respond to 
something to Senator Rosen. I will give you a minute if you 
want to do so.
    Mr. Wolf. The Supreme Court decision, obviously that we are 
adhering to. That is why I put out the new memo. That is why we 
are taking certain actions. In no way did the Supreme Court 
decision tell the Department to process new DACA applicants. 
The Supreme Court decision did not even say that the program 
was lawful. What it clearly did say is that DHS has the 
authority to rescind it. Now, of course, it did not like the 
way that we had done that over the past 3 years.
    And so my memo that I signed out, and the direction that I 
have given to the Department, is to continue the program under 
certain parameters. As the Senator said, no new DACA applicants 
or applications are being received, and that we have limited 
renewals to 1 year. And we did that because we have ongoing, 
serious concerns about this program, that we are working 
through consideration based off the Supreme Court decision and 
guidance. We are going to work through that carefully. We are 
going to consider everything that the Court laid out.
    But what we did want to do is to continue to operate a 
program that has serious reservations--unlawful, goes against 
deferred action, goes against Congress's wishes. And as we do 
that, we will continue to process and renew applicants as we 
have done over the past 3 years.
    Chairman Johnson. That is responding to the last point she 
made. Was there something else she made a statement that you 
wanted to respond to.
    Mr. Wolf. Again, there were several. One was the DHS law 
enforcement officials are cracking down on peaceful protesters 
in Portland, and that is a false narrative. It is a narrative 
that continues to be put out there, and it does a disservice to 
the men and women of law enforcement at the Department. In no 
way are we doing anything regarding peaceful protest.
    I have said this time and time again. We see hours-long 
peaceful protesting that occurs in Portland every night, right 
across from the Hatfield Courthouse. There are no incidents. 
There are no arrests. There are no injuries. That is not what 
is occurring. That is not what our law enforcement officials 
are dealing with every night.
    Chairman Johnson. OK. Thank you. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Secretary, thanks for your work. Please 
pass on our gratitude to the men and women of law enforcement 
that serve with you around the country, but especially those 
that are serving in Portland right now.
    I am astounded at some of the conversations that I have 
heard even during this hearing, but most certainly over the 
past several weeks, about the men and women that are serving 
there every single night. Please tell their families thank you. 
They are sending out their loved ones to be able to travel to 
Portland, and we discussed, peaceful protests across the 
street, your law enforcement have had 277 injuries. So while 
folks here want to blame the police, please tell them thank 
you. They have suffered chemical burns, being hit with bricks, 
being shot with pellet guns, had large-scale fireworks fired 
sideways into them, and mortar rounds. They have laser pointers 
shot at their eyes so they lose their sight, while Members of 
this Committee talk about peaceful protests and about your law 
enforcement being the problem.
    I do not think your agents are the problem. I think they 
are defending Federal property, which is what this Congress 
originally told them to do.
    This whole focus on defund the police and just walk away, 
like they did in Minneapolis, and just allow the building to 
burn down, and allow rioters to burn it down saying that is 
better, I do not agree with, and millions of other Americans do 
not agree with, just consenting to rioters to burn things down.
    So for your men and women that are on the front lines, 
please tell them thank you, that we are exceptionally grateful 
for their work, and I do not believe that they are the problem, 
nor do I think that, as has been stated over and over again, 
and you have been in this hearing, well, I know that they have 
been shot at and that they have had bricks thrown at them, and 
that they have had mortar rounds fired at them, and that they 
have had trash set on fire and leaf blowers blowing the trash 
toward them.
    But hey, there are two sides to the story. Just please tell 
them thank you from me.
    I do want to ask you a whole series of questions, and I 
have a lot of them, so let me just kind of walk through this. I 
have heard over and over again that your Federal law 
enforcement are going out on the streets and harming peaceful 
protesters. Are you cracking down on peaceful protests?
    Mr. Wolf. Absolutely not.
    Senator Lankford. Your Federal agents are being accused 
over and over again as saying they are not marked as Police, 
they are just unmarked, wandering the streets, and they have no 
police markings. Do you have Federal law enforcement in 
Portland that are not labeled as Police on their uniform?
    Mr. Wolf. Absolutely not. We are uniformed department. We 
have nine operating agencies. They all wear different uniforms. 
But all of the uniforms, as you can see here, are marked with 
Police. Some say Homeland Security. Others say Border Patrol, 
others say Customs and Border Protection (CBP), and others say 
ICE. They have Police on the front and they have Police on the 
back. They have patches on their shoulders. They clearly 
identify themselves as police.
    And I will just say, these are individuals who are out here 
in this--it is essentially half a square block where most of 
this violence takes place--they are out there for 66 nights. 
After the 30th or 40th night, you know who they are. You know 
violence is taking place at this spot each and every night, and 
you know if you come there, that is what you are coming to do.
    Senator Lankford. So it has also been accused that they are 
not wearing their nametags. So tell me a little bit about that.
    Mr. Wolf. They are not wearing their nametags because of 
the doxing we have seen for a number of agents. Not only their 
personal information is put out on Twitter or social media, but 
individuals are showing up at their homes and then their 
families are being identified.
    So what we did is we pulled off their nametags--so ``John 
Smith,'' we pulled that off--but we did put a unique 
identifier, numbers and letters, on their uniform, that we 
could keep track of them, the accountability for them. But 
their name is not specifically on there.
    Senator Lankford. Thank you very much for that. I have 
heard over and over again these are folks that are out there 
that are not trained in de-escalation and they have been 
randomly pulled in from other places and they are actually 
causing the violence by escalating because they are not 
trained.
    Mr. Wolf. So not true. Our Federal Protective Service 
officers are there. They are trained specifically for this 
mission. The ICE and the CBP officials that we have, law 
enforcement officers, are specifically trained for this 
mission. Our Border Patrol Tactical (BORTAC) unit from CBP, 
this is what they do at ports of entry (POE). Ports of entry 
every day, or I would say over the course of years, there are 
mass protests. Some try to barricade themselves at ports of 
entry. This is what these individuals do. ICE officers, this is 
what they do at detention facilities when riots take place.
    They are trained in de-escalation, crowd control. This is 
what we do. These are only individuals that we sent to 
Portland. I did not send law enforcement from the U.S. Coast 
Guard (USCG) or from Transportation Security Administration 
(TSA) or anyone else to Portland. They are not trained. It 
would not have been appropriate for them to be there.
    Senator Lankford. I have heard over and over again that 
Federal agents are wandering the streets of Portland, arresting 
people randomly. Snatch-and-grab is what I am hearing from my 
Democratic colleagues, that they are just out there, unlabeled, 
unmarked, grabbing people off the streets and putting them into 
unmarked cars.
    Mr. Wolf. So again, not true. We use both marked and 
unmarked vehicles. Again, what we try to do is de-escalate the 
situation. So as an individual is throwing a Molotov cocktail 
at the Federal courthouse, they then disappear into a group of 
500 to 1,000 or 2,000 individuals. What we do not do is try to 
go into the middle of that group. That is dangerous for our law 
enforcement officers and others. What we try to do is to keep 
track of that individual, and then begin to question that 
individual or arrest that individual when he breaks away from a 
group, so it de-escalates the situation.
    We have done all of our arrests, all 99 arrests that I have 
talked to earlier, happened on Federal property or within two 
to three blocks of that Federal courthouse.
    Senator Lankford. So I have also heard over and over again 
you are not cooperating with the local law enforcement, or that 
the local officials--and they are depicted by Democrats on this 
Committee and in Oregon, just so cooperative, and they have 
been so helpful and friendly, and you have just not reached out 
to them.
    But yet as I go through your report, the day when the 
Portland City Council voted to prohibit their law enforcement, 
local law enforcement, from cooperating with you, engaging with 
you, any kind of sharing of information, the day that they 
voted for that, this was your report from the night before in 
that time period that DHS put out.
    The report was around 10:20 local time, violent anarchists 
began a nightly assault on the courthouse. Rioters began to 
barricade in front of the courthouse, assaulted officers inside 
of the courthouse with lasers, which can cause permanent 
blindness. After repeated attacks from rioters, the plywood 
coverings at the front of the courthouse began to buckle. A 
group of rioters vandalized the south entrance to the 
courthouse with spray paint.
    In response to the rioters' assault, Federal officers were 
forced to leave the building--because they had been inside--in 
order to repel the mob. When they did so they were immediately 
assaulted with lasers and a variety of objects designed to 
inflict harm. Crowd control measures were deployed to try to 
redirect the large amount of people in the courthouse vicinity. 
Rioters responded by using cars to block movement on the 
street. Rioters began to use wooden boards to block the main 
courthouse entrance with officers inside. They hurled 
projectiles to the front of the courthouse and charged the 
doors.
    And then also this story as well, that in the early morning 
hours of July 22--that is the day of the vote when they said 
for police not to cooperate with you--a group of individuals 
gathered in an exterior entry in the Hatfield Federal 
Courthouse. Several members of the group, including Mr. Maza, 
began removing plywood attached to the front of the building to 
protect the damaged glass facade. After the group successfully 
removed the plywood sheeting, Mr. Maza made multiple attempts 
to kick in the window, struck it with a metal object, 
repeatedly pounded on it with what appeared to be a hammer.
    Shortly thereafter, a number of people successfully removed 
the entire wooden structure protecting the courthouse entry, 
and an unknown individual broke one of the windows. After this 
breach, Maza walked toward the building carrying a cylindrical 
object, then appeared to light a fuse, connect it to the 
object, place it inside the broken window. A short time later 
the object exploded in close proximity to law enforcement 
officers exiting the building through a broken window, and 
injuries were sustained.
    That was the night before Portland voted to make sure law 
enforcement would not cooperate with you in the night after 
night after night. These are the peaceful protests that are 
occurring that Members of this Committee continue to blame your 
officers as the problem, when that is actually happening on the 
street.
    So thanks for clarifying what the news is not reporting, 
and just tell your folks thank you for standing up for what is 
good and right. Thank you.
    Chairman Johnson. Thank you for that clarifying line of 
questioning, Senator Lankford. Senator Romney.
    [No response.]
    I do not see him on the board here anymore. I will go to 
Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman. Congress, and this 
Committee in particular, has the responsibility, of course, to 
ensure that the Census Bureau completes a full and accurate 
2020 Census, free from political interference. Yet in the last 
week, the administration made clear that it is overriding 
Census Bureau professionals by forcing them to rush, by 1 
month, remaining census operations, regardless of the quality 
and the accuracy of that data.
    This political interference, if not checked by Congress, 
will harm hard-to-count communities, including rural 
communities, communities of color, Tribal nations, and low-
income communities, for the next decade, at least.
    So Chairman, I urge you to schedule a hearing on this 
topic, because, of course, we have a duty to ensure a fair and 
accurate census.
    Chairman Johnson. We have already reached out, so, again, 
we are probably leave session here and I am not sure when a 
hearing would be scheduled. But I have already reached out to 
the Department.
    Senator Harris. I appreciate that.
    Mr. Acting Secretary, on August 3, The Washington Post 
reported that you regularly talk with the President and Stephen 
Miller. Have you discussed the deployment of DHS agents to 
protests in connection with the President's reelection effort 
and with the President or any of his staff, White House staff 
or campaign staff?
    Mr. Wolf. Again, I am not going to comment on my 
discussions with the President or senior staff. All the events 
that have taken place in Portland or the events as it--with 
respect to----
    Senator Harris. Sir, have you discussed----
    Mr. Wolf [continuing]. Have all been----
    Senator Harris [continuing]. Have you discussed the 
deployments with any of his campaign staff?
    Mr. Wolf. No. They have all been at the direction of the 
Department.
    Senator Harris. I am not sure if I heard your answer. Have 
you discussed the deployments with any of the President's 
campaign staff?
    Mr. Wolf. No.
    Senator Harris. Has the party affiliation of particular 
mayors or Governors come up in any of your conversations with 
anyone about the deployments?
    Mr. Wolf. Not in my conversations.
    Senator Harris. Are you aware of any conversations that 
have addressed that?
    Mr. Wolf. I am not. Again, I am not going to comment on any 
specific conversations that I have with the President.
    Senator Harris. So you are not going to comment on whether 
the party affiliation of the mayors or Governors has come up in 
any of your conversations?
    Mr. Wolf. Not in mine. I have just a general statement, 
because I see where you are going, is I am not going to comment 
specifically on any discussions that I have had with the 
President or senior staff. What I can tell you is our 
deployment of law enforcement officers to Portland or in 
support of Operation Legend are done within DHS authorities and 
not for any political-specific reasons.
    Senator Harris. On July 23, a United States Federal 
District Court judge ordered DHS and U.S. Marshals to stop 
arresting, threatening, or using force against journalists and 
legal observers. I am assuming that you were aware of that 
ruling on the day it came down.
    Mr. Wolf. Yes.
    Senator Harris. Can you tell this Committee what you did to 
inform your agents about that ruling, and what exactly did you 
inform them, and when did you inform them?
    Mr. Wolf. It was that evening, I believe. I believe that 
came down in the afternoon. We worked with our Office of 
General Counsel (OGC) along with the Department of Justice to 
make sure that our officers there in Portland, specifically, 
were aware of that, and provided some additional training along 
with FPS, and I believe DOJ did the same with the U.S. 
Marshals.
    Senator Harris. By what method did you inform your agents 
in Portland that day, or that evening?
    Mr. Wolf. Our Office of General Counsel, back at 
headquarters liaisoned with a lawyer there in Portland, and 
then briefed out all of our law enforcement operators there.
    Senator Harris. Did you issue a memorandum to your agents 
that evening?
    Mr. Wolf. I believe that the individual component heads 
from FPS and OGC, which would normally do that, our Office of 
General Counsel, provided not only the verbal briefing but also 
in paper.
    Senator Harris. Is that your normal protocol, that you, as 
the Secretary of this agency, would not directly inform your 
agents who are on the ground of a court ruling regarding the 
parameters and the permissible parameters of their enforcement?
    Mr. Wolf. So the normal protocol would be to make sure that 
our Office of General Counsel, our general counsel would inform 
them, and then the individual operating heads, component heads, 
of those additional law enforcement agencies would inform them 
as well.
    Senator Harris. The next day, on July 24, a Californian, 
who was a law student studying in Portland, attended the 
protests. She was wearing a green hat identifying her as a 
legal observer. She was filming the protest when a Federal 
agent shot her with a rubber bullet near her heart, at point-
blank range. Was there any disciplinary action taken against 
that agent?
    Mr. Wolf. I am unaware of that specific instance. What I 
can say is no DHS law enforcement officers in Portland use 
rubber bullets.
    Senator Harris. You have not been informed of this in any 
manner, even through the news?
    Mr. Wolf. Not of that specific one. Again, DHS law 
enforcement officers do not use that type of less-than-lethal 
munitions.
    Senator Harris. Will you follow up, please, with this 
Committee and ask your staff if they are familiar with this 
case----
    Mr. Wolf. Well, again----
    Senator Harris [continuing]. And if that was a DHS agent?
    Mr. Wolf [continuing]. U.S. Marshals----
    Senator Harris. Sir, may I finish, please?
    Mr. Wolf. U.S. Marshals----
    Senator Harris. And will you answer to this Committee once 
you have checked with your staff, if they are familiar with 
this incident, and if it was one of your agents, was there any 
disciplinary action taken? Will you follow up with the 
Committee?
    Mr. Wolf. I just answered it was not one of our agents, 
because we do not use that type of less-than-lethal munitions.
    Senator Harris. Public reports show Federal agents using 
chemicals against mothers and veterans. Agents are also using 
military-style flash bangs that explode almost like a bomb, and 
make people feel they are going deaf. Have you consulted with 
medical experts about the impact of chemical irritants on 
protesters, including pregnant women?
    Mr. Wolf. We have looked at a variety of our less-than-
lethal munitions as regards to crowd control and dispersing 
crowds.
    Senator Harris. Have you checked with medical experts about 
the impact of those chemical irritants on pregnant women?
    Mr. Wolf. Not on pregnant women, I have not.
    Senator Harris. I would advise you to do that.
    Mr. Wolf. Again, the less-than-lethal munitions----
    Senator Harris. Have any DHS----
    Mr. Wolf [continuing]. That we use in Portland occur 
between midnight and 5 a.m. every night.
    Senator Harris. Sir, I would advise you----
    Mr. Wolf. We do not use that----
    Senator Harris [continuing]. Knowing there are women, 
including pregnant women, in these protests----
    Mr. Wolf [continuing]. At peaceful protests.
    Senator Harris [continuing]. I would advise you, and it is 
well known there are mothers, including pregnant women, who are 
attending these protests. I would advise you, sir, to consult 
with medical experts to determine the impact of chemical 
irritants on pregnant women.
    Moving on, have any DHS personnel been suspended, 
terminated, or otherwise disciplined for using excessive force 
at the protests?
    Mr. Wolf. Are you referring to Portland specifically?
    Senator Harris. Any protests.
    Mr. Wolf. Not to my knowledge, no.
    Senator Harris. Have there been any complaints that have 
been investigated by your agency?
    Mr. Wolf. I know that our Office of Civil Rights and Civil 
Liberties, has received a number of complaints.
    Senator Harris. And what is the protocol that you have for 
being personally informed of those complaints and the 
investigations, if any, that have taken place?
    Mr. Wolf. CRCL, as I know, is looking into them. The DHS 
OIG is also looking--has an open investigation as well.
    Senator Harris. And at what point does it come to you?
    Mr. Wolf. It would come to me after the investigation is 
complete.
    Senator Harris. My time is up. Thank you, sir.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here.
    Can we just start by--is it your estimation that the riots 
that have been occurring in Portland around the Federal 
courthouse are coordinated and organized operations against 
Federal property and law enforcement?
    Mr. Wolf. We have seen certainly some coordination involved 
there and organization in there. Some of the tactics that they 
use are very similar to law enforcement as well as military.
    Senator Hawley. Why do you believe that the rioters have 
chosen--the violent rioters, we are now talking about, the ones 
who are firing munitions, who are attacking Federal officers, 
who are doxing Federal law enforcement--why is it that they 
have chosen to target a Federal courthouse? Is there some 
symbolism here?
    Mr. Wolf. I am not sure, because it is interesting, 
because, it is obviously the seat of justice there in Portland. 
A lot of lawsuits that I am sure some of the individuals that 
are peacefully protesting that want to see some changes in law 
enforcement are taking place in this courthouse.
    What we see on the site of the courthouse is they want to 
burn it down. They are very specific about that. They are on 
social media about that. Again, what I would say is night after 
night, for 60 nights, someone showing up at 3 a.m., on a site 
that has been very violent, night after night, is not a 
peaceful protester, is not a mother that wants to peacefully 
protest at that courthouse. They are showing up for a reason at 
3 a.m., and that is to do damage to the courthouse or our 
officers.
    Senator Hawley. You have been to Portland yourself, haven't 
you?
    Mr. Wolf. I have.
    Senator Hawley. You have been on the ground. You have seen 
the situation. What are the law enforcement officers who are 
there on the ground protecting this property, what have they 
told you, and what do you think that they might like this 
Committee to know?
    Mr. Wolf. My DHS law enforcement officers, who I met with 
when I was there, are extremely frustrated, or they were, I 
would say, before Oregon State Police got involved. They are 
extremely frustrated. They are a target each and every night. 
They are in a courthouse, and you have these violent 
individuals that are staging in city parts, on city streets, 
coming at them from various directions. They know which 
entrances we come in and out of that courthouse at. They have a 
target and it is very specific.
    So they feel under attack each and every night, and they 
are looking for State and local law enforcement to step up, 
patrol their parks, patrol their streets, and make arrests.
    Senator Hawley. Let us talk a little bit about the doxing. 
You referenced this, and just to give us a better idea of what 
is going on. I understand that at least 38 law enforcement 
officers in Portland, Federal law enforcement officers, were 
doxed, meaning that their personal information, including 
perhaps where they lived, their personal residence, was made 
publicly available. I think we can all agree that this is the 
worst form of a sort of public--it is really a form of social 
terrorism, in a way, I mean, to try and get these folks, put 
them in danger, put their families in danger, discourage them 
from undertaking their responsibilities.
    Can you describe for us, in more detail, what happened in 
that instance and who you think was responsible?
    Mr. Wolf. Yes. What we see, again, open source reporting is 
information that is put out on Twitter or on message boards 
that are identified by violent individuals that are taking 
place in Portland. It is exposing their personal information. 
And it is not only those individuals. It is also the 
individuals that we have brought in. Where they are staying, 
certain hotels that they are staying at are being put out on 
social media, and we have had to beef up security around those 
hotels as well.
    So it is very dangerous. It is just as dangerous as being 
in that courthouse. Once they leave, their danger does not go 
away. The threat does not go away for them. So individuals that 
we have there, night after night after night, are not only 
having to fight the fight between midnight and 5 a.m., but also 
when they leave to go back to their hotel to get some sleep.
    Senator Hawley. And you just referenced this in terms of 
what you are doing at the hotel. Give me some sense of what 
measures DHS is taking to protect both the officers who have 
been doxed and then others who are there, serving, carrying out 
their responsibilities, trying to keep Federal property and 
citizens, law-abiding citizens, safe. What are you doing to 
protect them and their families?
    Mr. Wolf. So each of our law enforcement agencies, whether 
it is FPS or whether it is ICE or CBP certainly have protocols 
that are put in place once a law enforcement officer's 
information is put out on social media. So we are making sure 
that we can pull that down as much as possible. Once it is out 
it is very difficult to do that. But making sure that they are 
protected as well. We have a Chief Security Office at the 
Department that obviously looks into all of this as well.
    So we are doing our very best, and while they are there at 
the courthouse they are very safe, they are very secure. We 
make sure of that. They come in well before any of the violent 
rioting starts, and then they will stay at that courthouse 
until it subsides.
    Senator Hawley. Just one final question on this, on the 
Portland situation. It is my understanding, and I think you 
referenced this a moment ago, that the Homeland Security Act of 
2002 actually charges the Homeland Security Secretary with 
protecting Federal buildings and grounds. I mean, that is a 
statute passed by this body, by the U.S. Congress, and that 
there is, therefore, a legal obligation for you to undertake 
the protection of Federal property. Can you just elaborate on 
that?
    Mr. Wolf. No, it is absolutely right. 40 USC 1315 directs 
the Department, directs the Secretary, and then FPS as an 
extension, to protect Federal properties. And I think a lot has 
been made about us sending additional law enforcement. What we 
saw in 2014, Secretary Johnson, DHS Secretary, sent additional 
law enforcement to FPS sites across this country, as the threat 
warranted. The threat warranted it in this case, as well, in 
Portland, and that is what we did.
    Senator Hawley. I wanted to just, in my remaining time 
here, talk a little bit about Operation Legend, which is 
happening across the United States. DHS is involved with that. 
It began in my home State, in the city of Kansas City, where a 
young boy, 4-year-old, LeGend Taliferro, was killed by gunfire 
while he slept in the early morning of June 29.
    Can you just elaborate for us on DHS's role in Operation 
Legend?
    Mr. Wolf. We are supporting the Department of Justice 
mainly through our Homeland Security investigators. Those are 
our HSI agents, part of ICE. And that is what they do each and 
every day. So they are looking at transnational criminal gangs. 
They are looking at illicit narcotics. They are looking at all 
the violent street crime that we see is on the rise in many of 
these metropolitan cities.
    So in Chicago we have over 100 HSI agents that are there 
every day, that are focusing on this, and what we are doing is 
we are prioritizing the cases that they work on to make sure 
that we address, in partnership with ATF, DEA, FBI, and Marshal 
Service, making sure that we are coming at it as a team, as a 
Federal team, along with State and locals there, to address 
that.
    Senator Hawley. I have had several conversations with the 
Department of Justice about Operation Legend as it has unfolded 
and continues to unfold. My understanding is that this 
operation is designed to assist State and local leaders in 
protecting their citizens, also in prosecuting crimes. Of 
course, oftentimes I can say, as a former State prosecutor, 
that a crime can be duly charged at the State and Federal 
level. I can say, again as a former State law enforcement 
official, that we always welcomed Federal assistance.
    But is it your understanding that this operation is 
designed to assist State and local leaders, and how would you 
assess so far the coordination and communication between State 
and local leaders and at least what you are seeing at DHS?
    Mr. Wolf. It was certainly designed that way, and I think 
it is working very well. So we have seen it work in Kansas 
City, St. Louis, Chicago, and a number of other cities. I think 
what you see is mayors and other elected officials in those 
cities, once they understand what it is, once they understand 
that we are there to work with them, designed to go after some 
of the violent crime, you see them saying, ``Great, I welcome 
you into my city. I want you to work with us.''
    Senator Hawley. Very good. My time has expired. I just want 
to say, in conclusion, thank you to the DHS law enforcement 
officers. Thank you to you, Mr. Secretary, for your service. 
But thank you especially to those law enforcement officers who 
are out there putting their lives on the line. I know that they 
do not have to do that. They are choosing to serve in this way. 
They are choosing to go out and to try and keep safe American 
citizens, Federal property, just like the Capitol Police do 
every single day in this building, just like the law 
enforcement do at home who keep us safe.
    So as someone who had the privilege, as the Attorney 
General (AG) of my State, to work with law enforcement in my 
State every single day, I just want to say thank you to them 
for what they are doing, and for choosing to serve our country 
in this way, and I am sorry that they are being dragged through 
the mud as they are.
    Mr. Wolf. Thank you. I will pass that along.
    Senator Hawley. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you.
    Mr. Secretary, thank you very much for joining us.
    Long before I came to the U.S. Senate I was a Boy Scout. I 
was a Civil Air Patrol cadet. I was a midshipman. I was a naval 
flight officer (NFO), one of today's last Vietnam veterans 
still serving in the U.S. Senate with the death of John McCain.
    One of the people I served with later on when I was elected 
to the U.S. Congress was a guy named Tom Ridge. Tom Ridge had 
also served as a Vietnam veteran, and we served together in the 
Congress. We served together as Governors.
    I ended up in the U.S. Senate and he ended up on the 
Homeland Security Committee, and he ends up as Secretary of 
Homeland Security, and he was and remains one of my dear 
friends. I am sure you have lifelong friends. He is a lifelong 
friend for me.
    He was quoted recently as saying--and I will just read what 
he said. Again, he was Secretary of Homeland Security during 
the George W. Bush Administration. He said, ``You may have 
statutory authority to do certain things, but that does not 
always mean it is the right thing to do. The insertion of a 
Special Weapons and Tactics (SWAT) team like this did not 
defuse the situation. It exacerbated it.''
    He went on to say, ``The department that was established to 
protect America from the ever-present threat of global 
terrorism was not established to be the President's personal 
militia.'' Then he added, ``It would be a cold day in hell 
before I would consent to an uninvited and unilateral 
intervention into one of my cities.''
    When he was Governor of Pennsylvania we were Governors at 
the same time. He and I took an oath--this is a copy of the 
Constitution--we took an oath to defend the country and 
Constitution, and the First Amendment of the Constitution says 
that ``Congress shall make no law respecting an establishment 
of religion, or prohibiting the free exercise thereof; or 
abridging the freedom of speech, or of the press; or the right 
of the people peaceably to assemble, and to petition the 
government for a redress of grievances.''
    The kind of activity that occurred in the wee hours of the 
morning in Portland, apparently for days or nights and weeks on 
end, was not peaceful assembly, and it, I think, is not the 
kind of behavior that any of us would count as.
    When I was Chairman several years ago, my colleagues may 
recall, I would go, as the Chairman of Homeland Security 
Committee, I would go to the floor of the Senate every month. I 
would talk about a different piece or a different part of the 
Department of Homeland Security. It could be Border Patrol. It 
could be TSA. It could be U.S. Coast Guard. It could be a 
variety of things. I would talk about their mission, and thank 
the men and women of the Department of Homeland Security for 
their service to our country, and thank their families for 
sharing their husbands, their wives, their moms, their dads, 
with the people of America.
    I understand the Department. I understand the many 
challenges that the Department faces. I do not count the 
occasions, in incidents in which the men and women of the 
Department who were deployed behaved badly. That certainly does 
not excuse the behavior of those who are up at 2 a.m. in the 
morning and violently demonstrating.
    When I was Congressman, my office was actually in the 
Wilmington Federal Courthouse. About a month or so ago, when 
violence popped up all over many of our cities around the 
country, there were violent protesters in the late hours, the 
wee hours of the morning, who came right down King Street, 
right in front the Federal building, where I used to work, 
along with Joe Biden's office was there, Bill Roth's office was 
there, all of the Federal judges' offices were there. And our 
Federal building was not attacked. That is about over a month 
ago.
    What happened in the hours that followed that was a 
remarkable thing, and what happened is the chief of police of 
the Wilmington Police Department, Robert Tracey, who a veteran 
of the New York City Police and I think the Chicago Police 
force, he and our mayor, Mike Purzycki, met with demonstrators, 
on their own turf, and talked to them, and began communications 
that ended up defusing violence that weekend, for the next 
week, and the week after that, and it has not occurred again.
    There is a great part in the movie called--I think it was 
called Cool Hand Luke. I might have that wrong, but it was a 
great Paul Newman movie. He ended up in prison, escaped from 
prison, and he was tracked down. And the great line that the 
prison wardens said when they finally got Paul Newman back, put 
him in jail, said, ``What we have here is a failure to 
communicate.'' And I think what we have right here in Portland 
is a failure to communicate.
    I used to be chairman of the National Governors Association 
(NGA). I have been a guest of every President we have had for 
probably the last 20 to 25 years, in their homes, the White 
House. And every President I have known literally has the 
ability to communicate with Governors. But he hosted, and many 
on a first-name basis, Democrat and Republican. And the idea 
that we face a situation like this, where the President never 
picked up the phone, as far as I know, to call the Governor or 
the mayor of Portland to say, ``This is just unacceptable. What 
can we do to help? How can we help make sure that this kind of 
violence stops?'' And to be invited into the city made, I 
think, a huge difference.
    Let me just stop here and say, I ask my staff, I say, 
``What is going on now that the Federal officers has stepped 
down? What is going on in terms of violence?'' And what I have 
on DHS's own website--I think this is August 2, it says 
``protest activity continues in an overall trend of diminishing 
violence as a result of the increased cooperation between the 
State and Federal law enforcement, in stark contrast to intense 
violence in Portland over the past 2 months.''
    I do not want us to cry over spilled milk, if we can do 
this all over again, the idea of the President of the United 
States, in a personal way, communicating with the Governor, the 
mayor of Portland, it could have made all the difference in the 
world. It could have made all the difference in the world.
    I have taken all of my time. I apologize for that. Mr. 
Chairman, if you might allow the Secretary to speak for a 
minute or so I would be grateful.
    Chairman Johnson. You can respond, sure.
    Mr. Wolf. Thank you, Senator. My apologies. It was a little 
difficult to hear, but let me take a couple of those comments 
and questions in order here.
    I appreciate you holding up the Constitution. That is 
exactly what the men and women, the law enforcement officers of 
DHS defend every day, the ideals in that Constitution, to 
include the First Amendment. And as I have said here, we both 
support and defend individuals who are going to peacefully 
protest, but again, what we see in Portland is absolutely the 
opposite between midnight and 5 a.m. for 60 days straight. So I 
just want to be very clear on that.
    Regarding Portland and a failure to communicate, I would 
disagree. There has been no failure to communicate. We have 
been very clear on what we need from State and local officials 
and law enforcement, and for 60 days they refused to engage. 
Finally, the Governor reached out, and now you see Oregon State 
Police patrolling the streets, patrolling, along with Portland 
police, around that Federal courthouse, and guess what? The 
violence has stopped. We knew it would stop once you have State 
and local law enforcement engaging and doing their job. We knew 
the violence would decrease, and it has. Unfortunately, it took 
until day 60, and it should have occurred on day 2 or 3, so 
that is unfortunate.
    And then regarding the comment on former Secretary Ridge, 
former Secretary Chertoff has also been mentioned here, and 
what I will again respectfully say is that I appreciate their 
service, not only to the Department, the country, but again, 
they are wrong on this issue. They do not understand the 
situation that is occurring in Portland. They do not understand 
the facts on the ground. And as I talked to them, I did reach 
out and I talked to them and I explained that, they understood 
what the men and women of DHS law enforcement, and their 
response was, ``You have to work better with State and local.''
    I agree with you. I agree with them. We have to work better 
with State and local. We need a willing partner in order to 
work with them, and for 60 days we did not have a willing 
partner to work with us.
    Senator Carper. Mr. Chairman, if I could just respond 
briefly. There is a lot to be said--when I was privileged to be 
chief executive of my State, I would pick up the phone and call 
people.
    Mr. Wolf. I called both the Governor and the mayor.
    Senator Carper. I would just hope that not just the 
Secretary would reach out, but in a case like this I think it 
good for the President to do that, and maybe to have the kind 
of relationships where, just talk to the mayor, and maybe 
actually find, by communicating, find a way to defuse this, and 
figure out whose role could be better served. Thank you.
    Chairman Johnson. It does take two to tango. Senator 
Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman. I appreciate the 
Chairman and the Ranking Member holding this hearing today, and 
especially the diligent efforts to ensure that Members can 
participate remotely. I appreciate that, Mr. Chairman. The 
Senate should set a good example regarding the importance of 
social distancing and making smart decisions during this 
pandemic, especially as an increasing number of Members of 
Congress and Capitol staff are diagnosed with COVID-19. So we 
are doing that today.
    I also appreciate Acting Secretary Wolf joining us today. 
Acting Secretary, my colleagues have discussed the challenges 
we saw in Portland regarding communication between DHS, State, 
and local officials. It is vitally important that this 
communication is frequent, open, honest, and flows in both 
directions. I share the concerns my colleagues expressed on 
these matters.
    Will you follow up with me and my office regarding how DHS 
intends to improve its partnerships with State, local, and 
Tribal officials and improve its communication strategies to 
prevent the types of challenges that we saw in Portland?
    Mr. Wolf. I will, Senator, and I will say that, again, we 
do not have any other issue in any other city around the 
country. It is very specific to Portland. I continue to reach 
out to both the mayor and the Governor. But again, I would 
direct you to the Portland City Council passed a resolution 
that prohibited Portland police from coordinating, supporting, 
and sharing information with Federal law enforcement.
    Senator Sinema. Thank you. Unfortunately, there are 
additional situations where DHS has not successfully 
communicated with State, local, and Tribal officials. I 
continue to be very troubled by recent reports that ICE housed 
migrant children, in many cases very young children, in 
temporary hotel accommodations in Arizona while deportation 
flights to their home countries were arranged. DHS did not 
notify the city of Phoenix about this initiative, and as we are 
aware, the city of Phoenix does not have a similar type of 
resolution passed, and we are willing and able to communicate 
with DHS and ICE.
    So we are in the middle of a global pandemic and 
communication across all levels of government is vital to 
maintaining a coordinated and strategic response. Frequent and 
robust communication between Federal, local, and State 
officials is both important to ensure law enforcement de-
confliction efforts and a coordinated message. And it is also 
critical to protecting the public health in individuals States 
and communities.
    So my question for you, Acting Secretary Wolf, is why did 
DHS choose not to communicate with the city of Phoenix in 
advance of this initiative, and what specific steps have you 
taken to improve communication with appropriate local officials 
regarding the transport and detention of children in DHS 
custody, especially when children are not being held in 
traditional DHS facilities?
    Mr. Wolf. Our use, or ICE's use specifically of hotel 
housing accommodations have been ongoing for decades, so it is 
nothing new. So we do that because the Office of Refugee 
Resettlement (ORR) is not able to take those unaccompanied 
alien children (UAC) at that specific time, or another housing 
location, ICE facility, is not readily available because of the 
part of the country. Or as you indicated, they are being 
deported the very next day. So this is a practice that the 
Department has used going back, again, for decades.
    The communication, though, I will say, should be occurring 
there locally, in Arizona, specifically both with the ICE 
director there as well as the CBP official, making sure that 
there is close coordination as those individuals are either 
being moved out of the hotel accommodations in housing, whether 
they are being deported, or they are being moved to ORR for 
further action.
    Senator Sinema. I appreciate that. I would like to follow 
up and ensure that happens in the future, because as you 
mentioned, if this has been going on for decades I assume it 
will continue to occur. In a State like Arizona, where we have 
high levels of apprehensions and deportations, we want to solve 
this before it continues.
    Since the initial report of this situation, the identified 
hotels have said they will no longer allow migrant children to 
be held at their properties. So is ICE continuing to hold 
children at non-ICE facilities now, and if so, where are they 
being held, and if not, can you tell me where this population 
of migrant children are being held?
    Mr. Wolf. Again, we have contracts that have been going on 
for decades to house individuals that we are in the process, or 
in the course of processing, again, if it is a UAC moving those 
from DHS custody to ORR or the Department of Health and Human 
Services (HHS) custody or to deport them. And as we do that, 
and then from a family we also do that with family units as 
well. So we do that not only using ICE housing facilities, 
detention facilities, and we have several of them in Texas and 
in Arizona, but we also continue to use that with housing 
accommodations as well.
    Senator Sinema. So are you using additional hotels other 
than the ones that have said they will no longer accommodate 
ICE's request to house immigrant children?
    Mr. Wolf. Yes. So we continue to work with local hotels, 
and again with our contractor that mans and supports that. So 
we have continued to use that moving forward, but we 
understand, again, some hotels fall on and off of that contract 
and we continue to use that as a way to house the individuals 
that we are picking up that legally have no right to remain in 
the United States and we continue to process them.
    Senator Sinema. So if I were to communicate with the mayor 
of Phoenix, Mayor Gallego, she would be aware of the current 
situation of migrant children being housed in non-ICE 
facilities inside of the city of Phoenix, including other 
hotels?
    Mr. Wolf. So we can certainly reach out to the mayor and to 
any other city officials and certainly explain the process, 
explain how that occurs and what they will see in their 
communities. And we should certainly be doing that from the ICE 
director there in Arizona. We can certainly have that outreach 
take place.
    Senator Sinema. Let us follow up on this, because in my 
last question we both agreed that this should be happening, and 
now we know that it is not happening. And since you have said 
that ICE will continue to transport children and hold them in 
hotel-type facilities in the city of Phoenix, to my knowledge 
there has been, as of this moment, no outreach to the city of 
Phoenix, to the mayor's office. So I would like to follow up 
and make sure that this actually does occur.
    Mr. Wolf. Absolutely. Again, as we do our mission each and 
every day in transporting individuals between DHS custody, HHS 
custody, and the like, we do that every day, we will certainly 
communicate with mayors and local officials as much as we 
certainly can. But these are missions that we do day in and day 
out, every single day.
    Senator Sinema. Thank you.
    Mr. Chairman, my time has nearly expired. I do have some 
additional questions but I will submit those to Acting 
Secretary Wolf, and again, I thank you for holding this hearing 
today and for the accommodations to allow for remote 
participation. I appreciate it.
    I yield back my time.
    Chairman Johnson. Thanks, Senator Sinema.
    Mr. Secretary, again, thank you for appearing here. As is 
often the case, when I reserve my time in terms of questioning, 
a lot of the other Senators asked questions and most of those 
questions have already been asked, so I will not repeat them.
    I think there is just kind of one area that I do want to 
explore a little bit with you, and it really is the makeup of 
the rioters. I know Senator Peters and a number of folks on the 
other side of the aisle were making a statement in terms of 
white supremacists, which I think we all knowledge is a growing 
problem and one that I know the Department is not ignoring. 
This Committee certainly is not as well.
    Do you have any kind of intelligence in terms of the 
rioters? First of all, is it a coordinated effort? Are you 
seeing coordination between some organization and different 
riots in different cities, or is this just locally spawned and 
potentially inspired by more the national movement? What are we 
finding out in terms of what is causing all this?
    Mr. Wolf. I will talk specifically about Portland. What we 
do see in Portland, or what we saw over that 60-day period was 
some organization to how they attacked the Federal courthouse, 
and that was just there locally, so I am not talking about any 
coordination with other cities.
    But specifically how they approached the courthouse, the 
tactics that they used, it was clear that they were trained. It 
was clear that there was some organization involved there, and 
it was not just this, natural outgrowth, for them to arrive 
there at 2 a.m. with weapons in hand.
    Chairman Johnson. OK. So there are signs of organization. 
Have you been able to, with investigation techniques, that type 
of thing, determine who is organizing this?
    Mr. Wolf. Our Homeland Security investigators are working 
specifically with the FBI and DOJ. They have a number of cases 
open specifically regarding Portland. I think what we are going 
to see over the course of the next 30 days to a month, you are 
going to see a lot more activity coming out of the Department 
of Justice and charging individuals.
    Chairman Johnson. So again, you just spoke about Portland 
but there are riots, and very destructive riots, all over the 
country, in a number of different cities.
    Mr. Wolf. Right.
    Chairman Johnson. Without revealing, the final findings of 
your investigations, which obviously you are not ready to do--
--
    Mr. Wolf. Right.
    Chairman Johnson [continuing]. Are you finding organizing 
groups? Are you finding commonality in terms of what is 
happening?
    Mr. Wolf. Overall we are, in individual cities. I do not 
see, or I have not seen the intelligence that they are 
coordinating across multiple cities, all at the same time. But 
what we do see, and I have said it time and time again, violent 
criminals, violent opportunists--these are individuals that 
perhaps do not have an ideology but are taking advantage of an 
environment, specifically in Portland, that for 60 days you 
could show up and you could do any type of violent things to a 
courthouse, and then you could leave, and no repercussions. So 
violent opportunists.
    We also see violent anarchists, specifically trying to burn 
down a courthouse. We see Antifa on social media, promulgating 
and inspiring others to do more violence in Portland, 
organizing. So there is certainly the Antifa. We also see 
boogaloo, and the Ranking Member mentioned it, that has been 
attributed there in Portland as well.
    So we see a number of violent extremists and ideology that 
is occurring. And what is dangerous about Portland is they have 
fostered this environment that you can show up, you can do any 
number of dangerous and criminal acts with no consequence to 
you. And that is why they showed up night after night, on the 
30th, 40th, 50th, and 60th night, because they know, for the 
vast majority, until DHS started arresting people, that there 
was no consequence.
    Chairman Johnson. So of the people you have arrested, in 
might be best in terms of gathering intelligence of what is 
causing this, my guess, we have already talked about white 
supremacists, we have talked about Antifa. I mean, that is the 
full spectrum of political ideology. Are you finding the full 
spectrum? Is there a majority, one side versus the other? Are 
anarchists--do they have ideology or are they just simply 
anarchists for the sake of being an anarchist?
    Mr. Wolf. So of the arrests that we have made it has been 
almost 199 different Federal arrests, we are seeing all of the 
above that you mentioned and I have mentioned as well. What we 
are also seeing is that these individuals are trained not to 
talk to law enforcement. So as soon as they are picked up, as 
soon as they are arrested, they do not talk to law enforcement. 
So the intel that we get from them is very little, and then 
obviously we turn it over to the Department of Justice, the 
U.S. attorney there, and then that process plays itself out.
    Chairman Johnson. So from past investigations do you know 
which groups train people not to talk to law enforcement?
    Mr. Wolf. All of the above, anywhere from just anarchists 
to Antifa and others. But yes, we do see that.
    Chairman Johnson. OK. I am going to find it quite 
interesting when some of your investigations conclude and we 
can maybe get some sort of sense of what is happening here, who 
is driving all this.
    Certainly we saw broad support from this Committee to the 
men and women of your Department, and I think that is fitting, 
I think that is proper. I am glad to hear there is very strong 
show of support. What I tried to do in my opening statement is 
lay out the significant challenges the men and women of DHS 
and, in general, law enforcement, face. It is not an easy task.
    I tried to describe the sacrifices made. Again, it is not 
only the sacrifice made by the men and women on the front lines 
but it is their family, that have to worry every time their 
loved one steps out the door, goes to work, and puts their life 
on the line. I mean, that is what is happening.
    So certainly from my standpoint I want to encourage you to 
convey our appreciation, my appreciation to all law 
enforcement, particularly those in your Department.
    Again, I mentioned the sacrifice. So, please wish the 
injured a full and speedy recovery.
    Mr. Wolf. Absolutely.
    Chairman Johnson. There is something that is particularly 
evil, which is one of the reasons I put it in the video, the 
green laser lights. Broken bones will heal. Other injuries will 
heal. You lose your sight, you have lost a quality of life. You 
have lost one of your senses. And for any human being to do 
that to another human being just strikes me as particularly 
evil. I hope they stop. I hope they question what it is they 
are doing to another human being.
    Mr. Wolf. Just on that point, I agree with you 100 percent. 
It is why I talk so passionately about our mission in Portland 
and about our law enforcement officers, and I welcome the 
opportunity to have, discussions like this, where I can refute 
some very inaccurate and dangerous information about DHS law 
enforcement. Because what is occurring in Portland and what is 
being reported by the mainstream media are two different things 
that are going on. DHS is out there. We are supporting our law 
enforcement officers. But it certainly helps, Chairman, when 
you and other Members of the Committee show that support as 
well.
    Chairman Johnson. I just want Americans to just really 
consider. Let us say that was your father, or your husband, or 
your wife that is being confronted by somebody who puts a 
little hole in their shield and hits a laser light to try and 
blind your loved one. Again, there is just something horribly 
despicable about all of this, but in particular that one really 
just affects me.
    So anyway, Mr. Secretary, thank you for your service. It is 
not an easy job. Coming before this Committee is not an easy 
task. I think you did a good job of being very forthright in 
your testimony. And please convey the strong support to the men 
and women of your Department of this Committee, and also from 
me personally.
    So with that the hearing record will remain open for 15 
days, until August 21, at 5 p.m., for submission of statements 
and questions for the record. This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
